           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   FOLLOW-UP: THE SOCIAL SECURITY
   ADMINISTRATION’S CONTROLS OVER
          THE WRITE-OFF OF
      TITLE XVI OVERPAYMENTS

     March 2010    A-04-09-19138




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                         SOCIAL SECURITY
MEMORANDUM

Date:      March 24, 2010                                                    Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Follow-up: The Social Security Administration’s Controls over the Write-off of Title XVI
           Overpayments (A-04-09-19138)


           OBJECTIVE

           Our objective was to determine whether the Social Security Administration’s (SSA)
           decisions to write off Title XVI overpayments were in accordance with its policies and
           procedures. Additionally, we determined the status of corrective actions SSA had taken
           to address recommendations in our January 2006 report, The Social Security
           Administration’s Controls over the Write-Off of Title XVI Overpayments
           (A-04-05-15041).

           BACKGROUND

           Title XVI of the Social Security Act established the Supplemental Security Income (SSI)
           program in 1972, effective January 1, 1974, to provide income to financially needy
           individuals who are aged, blind, or disabled. To determine an individual’s initial
           eligibility for the program, payment amounts, and periodic payment redeterminations,
           SSA relies on the individual’s self-disclosure of all his or her income sources. Because
           an SSI recipient’s determination factors, such as financial status, marital status and
           living arrangements, vary over time, SSI payments may be error-prone and result in
           overpayments.

           When SSA determines it has overpaid a recipient, it first attempts full and immediate
           recovery of the overpayment while affording the debtor due process in resolving the
           overpayment. If these efforts fail, SSA offsets the overpayment against any current and
           future payments. For those SSA debtors not receiving benefits, SSA attempts to
           negotiate a repayment agreement. SSA may also attempt to collect the overpayment
           from other Federal benefits or by offsetting Federal income tax refunds. 1 In some


           1
            20 C.F.R. §§ 416.574, 416.575, 416.580, 416.590 and SSA Program Operations Manual System
           (POMS) SI 02220.012.
Page 2 - The Commissioner


situations, SSA may waive recovery of an overpayment. 2 Additionally, in certain
circumstances, when SSA determines an overpayment is not collectible, it may elect to
terminate future collection efforts and write off the debt.

In Fiscal Year (FY) 2008, SSA’s field offices wrote off about $89 million in SSI
overpayments. Generally, SSA field office staff writes off overpayments when

•     SSA is under court order not to collect an overpaid amount,
•     an administrative law judge declares an overpayment is uncollectible,
•     a beneficiary is deceased and all proper efforts to collect the overpayment have
      proved fruitless, or
•     there was early delivery of an SSI check in the month of the recipient’s death.

To complete a write-off action for the specified circumstances, field office personnel
must assign a specific accounting code (“N” transaction code) to the overpayment.
However, this accounting code does not provide any further classification as to the
specific reason for the decision. For example, without written documentation, we were
unable to determine whether the overpayment was written off because the debtor was
bankrupt or deceased. SSA policies and procedures require that all overpayment
write-off decisions be justified; documented; and, when certain dollar thresholds are
                 3
met, approved. Moreover, Agency policies provide specific instructions for writing off
overpayments for debtors who are bankrupt 4 or deceased. 5

Our January 2006 report made recommendations to address control weaknesses in
SSA’s process of writing off Title XVI overpayments. In response to the report, SSA
agreed to take the following actions.

•     Issue a reminder to SSA field office personnel to fully develop and document
      overpayment write-off decisions, as required by POMS, and implement a
      mechanism to monitor their compliance.




2
    SSA, POMS, SI 02260.001 A.1.
3
 SSA, POMS, SI 02220.005. Field office disposition decisions for Title XVI overpayments over
$2,000 must be reviewed and approved by field office management to ensure the decision is technically
accurate and in compliance with policy and procedures.
4
    SSA, POMS, SI 02220.040.
5
 SSA, POMS, SI 02201.023., in effect September 17, 2001 through October 7, 2009, and POMS,
SI 02201.021., effective October 8, 2009.
Page 3 - The Commissioner


•   Issue a reminder and, if necessary, further guidance to SSA field office personnel on
    the proper disposition of overpayments resulting from Goldberg-Kelly type
    payments. 6

•   Ensure all uncollectible overpayment decisions exceeding established thresholds
    are reviewed and approved by appropriate SSA management officials, as required
    by POMS.

See Appendix B for the scope and methodology of our review.

RESULTS OF REVIEW
SSA took action on the three recommendations in our January 2006 report. However,
our current review again noted that SSA personnel did not always comply with Agency
policies and procedures to ensure their decisions to write off SSI overpayments were
appropriate. SSA policies and procedures require that all write-offs be justified;
documented; and, when certain dollar thresholds are met, approved. However, our
review of 250 randomly selected decisions and the 4 highest dollar decisions
determined SSA did not always document a justification for the write-off or the required
management approval. Additionally, in some cases, SSA incorrectly wrote off
overpayments.

In total, 218 (87 percent) of the 250 randomly selected overpayment write-offs had
1 or more compliance errors. As such, we project SSA personnel did not fully comply
with SSA policies and procedures for 56,448 FY 2008 overpayment write-offs totaling
about $70.6 million. See Appendix C for our projection methodology. Additionally,
three of the four highest dollar overpayment write-off decisions, totaling $167,318, did
not fully comply with SSA’s policies and procedures.

We recognize some compliance errors may not result in inappropriate write-off
decisions. However, because the justifications were not adequately documented, we
could not determine whether the decisions were reasonable.

The majority (76 percent) of write-off errors that lacked justification were related to a
beneficiary’s death. Given this continued high error rate, we believe SSA must either
do more to ensure staff compliance or reevaluate the value of the policy. If SSA




6
  The U.S. Supreme Court in Goldberg, Commissioner of Social Services of the City of New York v. Kelly
et al., 90 Supreme Court Reporter 1011 (1970), ruled that public assistance recipients must receive
advance notice of an adverse action and be provided an opportunity to appeal the decision without
interruption of benefits. SSA commonly refers to SSI recipients affected by the Supreme Court decision
as Goldberg-Kelly cases. According to SSA policy, Goldberg-Kelly type recipients may receive SSI
payments until the first level of their appeal is decided. However, payments received during the appeal will
be considered overpayments if the disability cessation decision is upheld. SSA, POMS, SI 02301.300. B.1.
Page 4 - The Commissioner


determines the current policy requirements are not cost-beneficial, SSA should revise
its policy to ensure the best use of its resources while still pursuing collectible
overpayments.

SSA PERSONNEL DID NOT ALWAYS DOCUMENT THEIR DEVELOPMENT OF,
AND JUSTIFICATION FOR, THE WRITE-OFF OF TITLE XVI OVERPAYMENTS

SSA personnel did not always comply with Agency policies and procedures to ensure
Title XVI overpayment write-offs were appropriate. SSA’s policies and procedures
require that the development of, and justification for, the write-offs be documented. 7
Our review included 250 randomly selected decisions and the 4 highest dollar
overpayment write-off decisions from FY 2008. For 205 (82 percent) of the
250 randomly selected write-off decisions, SSA personnel did not maintain relevant and
sufficient documentation to justify the decision. Based on our results, we project
55,524 cases, totaling about $67.2 million, were not adequately documented (see
Appendix C).

SSA policies require that SSA personnel take certain actions before writing off a
Title XVI overpayment. For example, before writing off an overpayment based on a
debtor’s bankruptcy proceeding or death, specific actions are required to ensure
recovery of the overpayment is not feasible. Further, SSA’s policies and procedures
require that staff document the development of, and justification for, the uncollectible
          8
decision.

Our 2006 report recommended that SSA issue a reminder to field office personnel to
fully develop and document overpayment write-off decisions and implement a
mechanism to monitor their compliance to address these matters. SSA issued an
Administrative Message in June 2007 and as recently as April and June 2009, revised
overpayment decision policies—which now emphasize that overpayment decisions
must be documented. 9 Because these new policies were issued after our audit period,
we did not determine whether they resulted in improved employee compliance.
However, our current review identified many 2008 write-off decisions that still lacked
documentation to justify the decisions.

Write-off Decisions for Debtors in Current Pay Status

For 24 (12 percent) of the 205 undocumented write-off decisions, the debtors were
receiving SSI or other SSA benefits at the time of our audit. Further, 15 of the
24 write-off decisions were made when the beneficiary was in current pay status. We
found no evidence to justify the write-off decisions, but we determined that these
7
    SSA, POMS SI 02220.005 A.
8
    SSA, POMS, SI 02220.005 C.
9
 SSA, POMS, SI 02220.005 Documenting the Supplemental Security Income Overpayment and
SI 02220.053 Suspension and Termination of Supplemental Security Income Overpayment Recovery
Efforts for a Deceased Individual.
Page 5 - The Commissioner


individuals were not deceased and had not filed for bankruptcy protection. The
write-offs for these 24 cases totaled $25,389. Because SSA’s justifications for the
decisions were not adequately documented, we could not determine whether the
overpayments should have been written off as uncollectible or some or all of the
overpayments should have been deemed collectible and the debt offset against future
SSA benefits.

Write-off Decisions for Deceased Debtors
                                                                     10
In 181 (72 percent) of the 250 randomly selected write-off decisions, SSA’s records
indicated the debt was written off after the recipient’s death. However, 155 (86 percent)
of the 181 decisions lacked evidence that the uncollectible overpayment was written off
according to SSA’s policy, which states a deceased beneficiary’s estate is liable for the
debt. 11 The total amount written off on these cases was $459,463. Moreover, 29 of the
155 write-off decisions were for overpayments of $5,000 or more, which totaled
$254,905.

When the deceased beneficiary’s debt is $5,000 or less, SSA staff can write off the
debt after a limited review of the case. Specifically, SSA policy requires that only a
notice of overpayment be sent to the estate. SSA instructions state that in Title XVI
death cases involving an overpayment, the Agency should terminate collection actions
unless (1) there is a responsible payee or spouse, (2) there is a sponsor of an “alien
recipient,” (3) a refund has been received, (4) there is a “complex overpayment issue,”
                         12
or (5) fraud is involved. For deceased beneficiaries with debt over $5,000, SSA policy
requires that staff determine whether the debtor has an estate. If an estate exists,
further actions should be taken to determine whether any recovery from the estate is
          13
possible.

For 155 (76 percent) of the 205 cases lacking justification, SSA records indicated the
beneficiary was deceased. Given the continued high error rate, we believe SSA must
do more to ensure staff compliance. That is, the Agency should ensure staff notifies
the estate of the overpayment and, if required, investigate the possibility of recovering
some of the debt from the estate. However, if SSA determines these actions are not
cost-beneficial, the Agency should consider revising policy to establish procedures that
would best use SSA resources when collecting overpayments.



10
  The four highest dollar decisions involved a deceased beneficiary. However, these four decisions did
not have compliance errors related to estate development. Accordingly, these decisions were not
included in this section.
11
     SSA, POMS, GN 02215.050 A.
12
     SSA, POMS, SI 02220.053 A.2., and GN 02210.221.B.3.b.
13
   SSA, POMS, SI 02220.053 A.5., in effect March 6, 2007 through June 10, 2009 and SI 02220.045 C.1.,
in effect November 7, 1995 through June 10, 2009.
Page 6 - The Commissioner


Write-off Decisions when Debtors’ Representative Payees had Earnings

For 18 (7 percent) of the 254 write-off decisions (250 randomly selected and 4 over
$50,000), totaling $102,853, the debtor’s representative payee, who may have been
responsible for the overpayment, may have had sufficient earnings to repay some or all
of the debt. In these 18 cases, we found no evidence justifying SSA’s decision to write
off the debt. Without evidence, we could not conclude whether the overpayment should
be recovered from the representative payee or written off.

According to SSA policy, personnel may attempt to recover an overpayment from the
beneficiary’s representative payee and should attempt to determine whether the
                                                                      14
representative payee is solely or jointly liable for the overpayment.

Our review of SSA’s earnings records found the representative payees’ most recent
annual earnings available to SSA staff at the time of the write-off decisions ranged from
$12,170 to $52,090. Although the earnings indicate the representative payees may
have been able to repay some of the debt, for the 18 cases, we found no evidence that
SSA evaluated their overall financial conditions to determine their ability to pay. We
reviewed SSA’s Master Earnings File for Tax Years (TY) 2006 through 2008 and found
all 18 representative payees had earnings over $10,000 in each of the TYs. Further,
when the write-off decisions were made, SSA field office staff had access to the
TY 2006 earnings for all 18 cases and TY 2007 earnings for 10 of the 18 cases. The
pattern of continued earnings could indicate the representative payees had some ability
to repay the debts.

Table 1 provides details of the representative payee earnings that were available to
SSA staff when the overpayment was written off and demonstrates that the
representative payees’ earnings generally continued and were consistent over the
3-year period 2006 through 2008.




14
  According to SSA, POMS SI 02201.020 B.4., SSA may attempt to recover an overpayment from a
representative payee when the overpaid funds (1) were not used for the overpaid individual's support and
maintenance or (2) were used for the overpaid individual's support and maintenance and the payee was
aware of the facts causing the overpayment.
Page 7 - The Commissioner


          Table 1: Representative Payee Earnings Available When
                     Overpayments Were Written Off
                                       Reported Reported      Reported
    Case  Overpayment      Date of     Earnings Earnings      Earnings
   Number    Amount       Write-off    TY 2006     TY 2007     TY 2008
           1            $7,937        12/19/2007         $52,090         $52,925          $57,241
           2            $1,152        12/27/2007         $45,601         $55,819          $58,116
           3            $2,283         1/10/2008         $42,019         $36,738          $37,147
           4            $2,865         2/29/2008         $32,299         $41,847          $48,348
           5            $5,310         7/28/2008         $32,112         $34,159          $37,147
           6              $729          1/7/2008         $29,444         $31,503          $33,549
           7            $6,080          8/4/2008         $24,049         $39,356          $37,073
           8            $3,361         6/13/2008         $23,569         $18,528          $11,018
           9              $252         4/29/2008         $22,992         $14,809          $17,951
          10            $2,074          7/8/2008         $22,820         $17,949          $22,460
          11            $8,703          7/7/2008         $21,568         $22,833          $34,017
          12           $55,332        10/25/2007         $20,820         $19,419          $12,285
          13              $250         7/28/2008         $19,298         $18,712          $16,105
          14              $812         7/10/2008         $18,681         $18,685          $18,054
          15              $377          6/9/2008         $16,180         $15,222          $25,175
          16            $2,812         3/20/2008         $15,271         $12,555          $12,446
          17            $2,291        11/27/2007         $12,656         $13,147          $13,510
          18              $233        11/23/2007         $12,170         $21,943          $22,716
   Earnings in purple indicate the debtor earnings available when the overpayment was written off.

Our April 2005 report, The Social Security Administration’s Controls over the
Suspension of Title XVI Overpayment Collection Efforts, made two recommendations
related to SSA improving its collection efforts from beneficiaries who had representative
payees with earnings. First, we recommended that SSA consider clarifying or issuing
further guidance for collecting overpayments from a representative payee who is a
parent of a minor child/beneficiary. Second, we recommended that SSA personnel
match representative payees’ earnings to suspended overpayment decisions to identify
instances in which some repayment of the debt is possible.

SSA stated it planned to implement the Non-Entitled Debtor (NeD) system to assist in
recovering Title XVI debts from representative payees. However, SSA’s response did
not state that an implementation date had been established for the Title XVI segment of
NeD. The project was proposed for FY 2010 funding but was not approved. The
project will be resubmitted for FY 2011 funding.

WRITE-OFF DECISIONS WERE INCORRECT

For 12 (5 percent) of the 250 randomly selected write-off decisions, staff incorrectly
wrote off the overpayments as uncollectible. The 12 write-offs totaled $36,649.
According to SSA policy, field office staff should only write off overpayments when (1) a
court order prohibits SSA from collecting the overpayment, (2) an administrative law
judge declares an overpayment is uncollectible, (3) the beneficiary is deceased and
Page 8 - The Commissioner


SSA has exhausted all efforts to collect the overpayment, or (4) there was an early
delivery of an SSI check in the month of the recipient’s death.

SSA staff wrote off overpayments for various reasons not set forth in policy. For
example, staff wrote off erroneous payments when SSA determined a beneficiary was
in a nursing home and unable to repay the debt or out of the country. Staff also used
write-off decisions to adjust overpayment amounts and delete erroneous overpayments.

SSA MANAGEMENT DID NOT ALWAYS DOCUMENT ITS REVIEW OF WRITE-OFF
DECISIONS, AS REQUIRED

From our sample of 250 randomly selected overpayment write-offs, 125 (50 percent)
required a supervisory review because the overpayment amount exceeded established
dollar thresholds. Of the 125 write-off decisions, 26 (21 percent) lacked evidence of the
required supervisory review. The overpayments written off on these 26 decisions
totaled $121,092. Field office staff processed the write-off actions for all 26 cases.
Additionally, three of the four write-offs greater than $50,000, totaling $167,318, were
not approved in accordance with SSA national instructions.

Field office personnel may write off uncollectible overpayments under $2,000 without
supervisory approval. However, write-off decisions for overpayments at least
$2,000.01 but less than $20,000 must have field office management approval. The
overpayments written off on these 26 cases ranged from $2,116 to $18,850. Field
office management review and approval is documented through a “2-PIN” process.
Non-supervisory staff must enter a personal identification number (PIN) to access and
develop the write-off decision in SSA’s Modernized Supplemental Security Income
Claims System (PIN 1). Then, field office management must enter a PIN in the system
                                           15
to authorize posting the decision (PIN 2).

SSA staff explained that write-off decisions were “controlled” through the Recovery and
                                                     16
Collection of Overpayments System (RECOOP), which is used at the program service
center level or in certain situations by field offices. Staff further explained that when
overpayments are controlled by RECOOP, write-off decisions made at field offices are
not subject to the 2-PIN process. SSA representatives explained that the reasoning
behind the procedure was that SSA had no data to indicate there was either
“decisional” or “documentation” errors in RECOOP overpayment disposition decisions.
However, we found 23 of the 26 decisions had documentation and/or decisional errors.




15
     SSA, POMS, SI 02220.005 A.
16
  RECOOP is a billing and follow-up system used in SSA’s debt management process. RECOOP
consolidates and controls all debt management activities for certain Title II and Title XVI overpayments.
RECOOP interfaces with SSA’s Supplemental Security Record (Title XVI) system and the billing and
remittance functions of the Debt Management System.
Page 9 - The Commissioner


We found a similar issue regarding the approval of overpayment decisions in our
September 2009 report, Follow-up: The Social Security Administration’s Controls over
Suspending Collection Efforts on Title XVI Overpayments (A-04-09-19039). In that
report, SSA agreed that policy in effect during our audit period required the 2-PIN
approval process for overpayment decisions made at the field office level. However,
SSA further explained policy was revised in May 2009 to state that the 2-PIN approval
process did not apply for suspension decisions controlled by RECOOP. 17 Because the
overpayment decisions controlled through RECOOP had a high compliance error rate,
we recommended that SSA reconsider the revision to its May 2009 policy. Given that
our current review also found write-off decisions controlled though RECOOP had a high
compliance error rate, we recommend that SSA reconsider its policy in which the 2-PIN
process does not apply to overpayment decisions controlled through RECOOP.

We also reviewed the four highest dollar write-off decisions. All four of the write-offs
exceeded $50,000 and totaled $259,264. For two of the four decisions, we found no
evidence of the required management approval. One other case was approved in
accordance with regional policy but was not consistent with SSA’s national policy. The
overpayments for the write-off decisions exceeded $20,000 and required the approval
of an Assistant Regional Commissioner for Management and Operations Support
(ARC-MOS). SSA’s records indicated that the three beneficiaries were deceased at the
time of the write-off decision. Table 2 details the three write-offs exceeding $20,000 for
which we found no evidence of the required ARC-MOS approval.
                 Table 2: Uncollectible Decisions that Exceeded $20,000
                          Overpayment Write-off          Date of
                            Amount           Date        Death
                       1        $55,332 10/25/2007 06/29/1996
                       2        $56,219 10/18/2007 02/26/2007
                       3        $55,767 10/25/2007 07/30/2005
                              $167,318

In the first case, SSA field office management wrote the case off to suspend collection
efforts pending an Office of the Inspector General criminal investigation. 18 SSA
explained that ARC-MOS approval was not obtained because the field office did not
intend to actually write-off the overpayment. A criminal conviction resulted and
restitution of the overpayment was ordered. SSA should reverse the write-off.

In the second case, SSA wrote off the overpayment as part of an accounting
adjustment to move the overpayment from the deceased beneficiary’s record to the
spouse’s record. SSA staff explained that, because the action was not a true write-off,
they believed ARC-MOS approval was not required.


17
     SSA, POMS, SI 02220.005.A.
18
  The beneficiary died June 1996; however, the death was not reported to SSA. The deceased
beneficiary continued to receive benefit checks that a third party converted to cash.
Page 10 - The Commissioner


In the third case, SSA’s efforts to locate the deceased beneficiary’s estate were
unsuccessful. The write-off was then approved by regional staff from the Center for
Program Support in accordance with regional policy. This regional policy delegated
authority to approve overpayment write-offs exceeding $20,000 to the Center for
Program Support Specialist—even though national SSA policy required that the
ARC-MOS approve these write-offs. 19

Our prior report recommended that SSA ensure all uncollectible overpayment decisions
exceeding established thresholds are reviewed and approved by appropriate SSA
management officials, as required by POMS. SSA issued an Administrative Message
reminding staff that management review and approval of overpayment write-off
decisions was required and important. However, our current review found high-dollar
write-off decisions still lacked appropriate management approval.

CONCLUSION AND RECOMMENDATIONS
SSA did not always follow established policies and procedures to ensure Title XVI
write-off decisions were appropriate. Specifically, SSA staff did not always document
their justification for classifying an overpayment as uncollectible. For cases that lacked
evidence supporting the write-offs, we found situations where the debt may have been
collectible. For example, some debtors had a representative payee with sufficient
earnings to prompt case development and generate debt repayment. Additionally,
decisions developed by field office staff lacked evidence of a supervisory review.

Although SSA took corrective actions on the recommendations in our prior report, we
found similar conditions existed in our current audit. To avoid duplication, we are not
restating the recommendations from our previous report. However, we reiterate the
need for SSA to ensure (1) field office staff complies with SSA requirements by fully
developing and documenting overpayment write-off decisions and (2) all overpayment
write-off decisions exceeding established thresholds are reviewed and approved by
appropriate SSA management officials, as required by policy.

Additionally, we recommend that SSA:

1. Continue to urge staff compliance with existing policy when writing off Title XVI
   overpayments and hold accountable those employees who do not follow established
   criteria.

2. Determine whether the policy and procedures for collecting overpayments from
   deceased beneficiaries are an efficient use of SSA resources. If necessary, revise
   the current policy.

3. Implement a mechanism to ensure SSA field office personnel fully develop and
   document overpayment write-off decisions, as required by POMS.

19
     SSA, POMS, SI BOS 02220.005.
Page 11 - The Commissioner



4. Reverse the $55,332 overpayment write-off for which restitution has been ordered.

5. Determine whether it is permissible for regional offices to delegate write-off authority
   for debts greater than $20,000 to staff other than the ARC-MOS.

AGENCY COMMENTS
SSA agreed with all our recommendations. See Appendix D for the full text of SSA’s
comments.




                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                           Appendix A

Acronyms

ARC-MOS   Assistant Regional Commissioner for Management and Operations Support
C.F.R.    Code of Federal Regulations
FY        Fiscal Year
NeD       Non-Entitled Debtor
OPDD      Overpayment Decision Data
PIN       Personal Identification Number
POMS      Program Operations Manual System
RECOOP    Recovery and Collection of Overpayments System
SSA       Social Security Administration
SSI       Supplemental Security Income
TY        Tax Year
                                                                                       Appendix B

Scope and Methodology
To accomplish our objectives, we reviewed 254 Title XVI overpayments written off by
Social Security Administration (SSA) field offices in Fiscal Year (FY) 2008. This total
consisted of (1) 125 randomly selected write-offs that ranged from $200.01 through
$2,000, (2) 125 randomly selected write-offs between $2,000.01 and $50,000, and
(3) 4 write-offs $50,000.01 or greater. We selected our population from SSA’s
Overpayment Decision Data (OPDD) segment of the Supplemental Security Record.
Specifically, from the OPDD segment, we selected transactions with an “N” “type of
recovery code,” which indicates SSA deemed the overpayment uncollectible. Within
this subset, we selected transactions with a blank “recovery transaction code,” which
indicates an SSA field office deemed the overpayment uncollectible.

We reviewed each overpayment write-off decision for appropriateness, as defined in
SSA’s Program Operations Manual System (POMS). Our audit tested more than one
control attribute for each write-off decision. We determined whether the field office
adequately documented each decision to evidence the (1) reason/justification for the
write-off and (2) approval by the appropriate level of management. 1 As a result, some
write-offs have more than one reportable issue and are included as audit findings in one
or more sections of the report. However, when projecting the overall number of
write-offs with errors, we counted only one error for each case. We made all
projections at the 90-percent confidence level. Additional information regarding our
sampling methodology and results are in Appendix C.

We also:

•     Reviewed applicable sections of SSA POMS that govern overpayment write-offs
      under Title XVI of the Social Security Act.

•     Reviewed previous Office of the Inspector General reports pertaining to
      Supplemental Security Income overpayments.

•     Queried and reviewed overpayment write-off information from SSA’s Supplemental
      Security Record, Modernized Supplemental Security Income Claims System,
      Modernized Development Worksheet, and Debt Management System.

•     Queried and reviewed SSA’s Master Earnings File.

•     Queried U.S. Bankruptcy Court records available in its Public Access to Court
      Electronic Records system.

1
    Field office disposition decisions for Title XVI overpayments over $2,000 require supervisory approval.


                                                      B-1
We performed our audit work in Atlanta, Georgia, from April through September 2009.
The electronic data used for this audit were sufficiently reliable to meet our audit
objectives. The entities audited were the Offices of the Deputy Commissioners for
Budget, Finance and Management; Operations; and Retirement and Disability Policy.
We conducted our audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
reasonable basis for our findings and conclusions based on our audit objectives.




                                        B-2
                                                                                 Appendix C

Sampling Methodology and Results
SAMPLING METHODOLOGY

In total, we reviewed a sample of 254 Title XVI overpayment write-off decisions from
Fiscal Year (FY) 2008. Our sample consisted of (1) 125 randomly selected write-offs
that ranged from $200.01 through $2,000, (2) 125 randomly selected write-offs between
$2,000.01 and $50,000, and (3) 4 write-offs $50,000.01 or greater. We selected our
population from the Social Security Administration’s (SSA) Overpayment Decision Data
(OPDD) segment of the Supplemental Security Record.

Specifically, from the OPDD segment, we selected transactions with an “N” “type of
recovery code,” which indicates SSA deemed the overpayment uncollectible. Within
this subset, we selected transactions with a blank “recovery transaction code,” which
indicates an SSA field office deemed the overpayment uncollectible. The following
chart details our sample selections.

       Strata: Write-off
     Decisions by Dollar        Population         Population          Sample           Sample
           Amount               Decisions           Dollars             Size            Dollars
    $200.01 to $2,000               56,280         $43,367,329              125           $85,660
    $2,000.01 to $50,000             8,889          45,329,050              125           598,084
    $50,000.01 and Greater               4             259,264                4           259,264
                     Totals         65,173         $88,955,643              254          $943,008

Our audit tested more than one control attribute for each write-off decision. We
determined whether the field office adequately documented each decision to evidence
the (1) reason/justification for the write-off and (2) approval by the appropriate level of
management. 1 As a result, some write-offs have more than one reportable issue and
are included as audit findings in one or more sections of the report. However, when
projecting the overall number of write-offs with errors, we counted only one error for
each case.

We made all projections at the 90-percent confidence level.




1
 According to Program Operations Manual System, SI 02220.005, field office disposition decisions for
Title XVI overpayments over $2,000 must be reviewed and approved by field office management.



                                                  C-1
SAMPLING RESULTS

Overall Results – Write-off Decisions with at Least One Compliance Error

     Results and Stratified Projections of Attribute and Variable Appraisals

 Write-off Decisions with at Least One Compliance Error – Decisions Between
                              $200.01 and $50,000
                        Attribute Appraisal Projections
 Population and Sample Data                                      Decisions
 Total Population                                                     65,169
 Sample Size                                                             250
 Write-off Decisions with at Least One Compliance Error – Decision Did Not
 Comply with SSA’s Policies and Procedures                                                218
 Projection to Population                                                        Projections
 Lower Limit                                                                          53,570
 Point Estimate                                                                       56,448
 Upper Limit                                                                          59,326
                       Variable Appraisal Projections
 Population and Sample Data                                                      Dollars
 Total Population                                                                $88,696,379
 Sample Size                                                                        $683,744
 Write-off Decisions with at Least One Compliance Error – Decision Did Not
 Comply with SSA’s Policies and Procedures                                          $608,747
 Projection to Population                                                        Projections
 Lower Limit                                                                     $64,737,995
 Point Estimate                                                                  $70,622,614
 Upper Limit                                                                     $76,507,232

            Write-off Decisions with at Least One Compliance Error –
                        Decisions $50,000.01 and Greater
 Population and Sample Data                         DECISIONS       DOLLARS
 Total Population                                                            4          $259,264
 Sample Size                                                                 4          $259,264
 Write-off Decisions with at Least One Compliance Error –
 Decision Did Not Comply with SSA’s Policies and Procedures                  3          $167,318




                                                C-2
SSA Did Not Always Maintain Documentation of Its Development of, and
Justification for, Writing Off the Overpayment

     Results and Stratified Projections of Attribute and Variable Appraisals

  No Evidence Documenting the Development or Justification for Writing Off
            the Overpayment – Decisions Between $200.01 and $50,000
                        Attribute Appraisal Projections
 Population and Sample Data                                     Decisions
 Total Population                                                    65,169
 Sample Size                                                            250
 Decisions with No Evidence Documenting the Development or Justification for
 Writing Off the Overpayment                                                             205
 Projection to Population                                                       Projections
 Lower Limit                                                                         52,626
 Point Estimate                                                                      55,524
 Upper Limit                                                                         58,422
                       Variable Appraisal Projections
 Population and Sample Data                                                     Dollars
 Total Population                                                               $88,696,379
 Sample Size                                                                       $683,744
 No Evidence Documenting the Development or Justification for Writing Off the
 Overpayment                                                                       $561,280
 Projection to Population                                                       Projections
 Lower Limit                                                                    $61,151,145
 Point Estimate                                                                 $67,247,149
 Upper Limit                                                                    $73,343,153




                                                C-3
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      March 4, 2010                                                            Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Follow-Up: The Social Security
           Administration’s Controls over the Write-Off of Title XVI Overpayments” (A-04-09-19138)--
           INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                           D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S
CONTROLS OVER THE WRITE-OFF OF TITLE XVI OVERPAYMENTS”
(A-04-09-19138)

We reviewed the draft report. In the report you acknowledge that we revised overpayment
policies in April and June of 2009. We took these actions based on recommendations from your
2006 report, (A-04-05-15041) “The Social Security Administration’s Controls over the Write-Off
of Title XVI Overpayments.”

We believe that you should delete the following statement on page 4 of the report, “We
acknowledge the new instructions SSA issued, but continue to believe field office staff must be
more diligent when processing these actions and should be held accountable if they do not
comply.” This statement is not factually based or supported by audit work. The audit period is
FY 2008. Your statement reflects reviews of 2008 overpayment cases that pre-date the April
2009 and June 2009 policy revisions.

Our responses to the specific recommendations are below.

Recommendation 1

Continue to urge staff compliance with existing policy when writing off Title XVI overpayments
and hold accountable those employees who do not follow established criteria.

Comment

We agree. We have already issued revised overpayment policies in 2009 and we will continue to
urge staff to comply with existing policies regarding writing off Title XVI overpayments. As a
reminder, we will issue an Administrative Message (AM) on the subject in FY ‘10.

Additionally, employees who do not follow the current policies and procedures on writing off
Title XVI overpayments are held accountable. If it is determined that actions are improper,
employees can be subject to disciplinary actions under existing agency guidelines.

Recommendation 2

Determine whether the policy and procedures for collecting overpayments from deceased
beneficiaries are an efficient use of SSA resources. If necessary, revise the current policy.

Comment

We agree and have taken action to ensure that our current policies for collecting overpayments
from deceased beneficiaries are an efficient use of our resources. We reviewed our policies and
procedures and revised our policy instructions in June 2009 to include new policies for 1) when
we will pursue recovery from an estate, a spouse, a representative payee, or alien sponsor, 2)


                                                D-2
when to refer recovery from an estate to the Department of Justice (we also added that estate
development is the same for Title II and Title XVI), and 3) when to hold a representative payee
solely liable for certain payments received after the month of the recipient’s death.

Recommendation 3

Implement a mechanism to ensure SSA field office personnel fully develop and document
overpayment write-off decisions, as required by POMS.

Comment

We agree that a POMS compliant mechanism is essential to ensure accurate overpayment write-
off decisions. The Onsite Security Control and Audit Review (OSCAR) process is currently used
to evaluate overpayment write-off determinations. Regional offices and field office management
personnel will continue to use the OSCAR process to develop and document overpayments.

Recommendation 4

Reverse the $55,332 overpayment write-off for which restitution has been ordered.

Comment

We agree. We will take the necessary action to reverse the $55,332 overpayment write-off due to
the order for restitution.

Recommendation 5

Determine whether it is permissible for regional offices to delegate write-off authority for debts
greater than $20,000 to staff other than the ARC-MOS.

Comment

We agree. We will evaluate the current policy, make any necessary changes, and ensure
consistent national application of this write-off authority.




                                                D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, Atlanta Audit Division

   Frank Nagy, Audit Manager

Acknowledgments

In addition to those named above:

   Lisa M. Swanson, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-04-09-19138.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
